                                                   NATIONAL SCIENCE FOUNDATION
                                                    OFFICE OF INSPECTOR GENERAL
                                                      OFFICE OF INVESTIGATIONS

                                              CLOSEOUT MEMORANDUM

Case Number: A11110074                                                                        Page 1 of 1



         OIG opened this file after finding plagiarism in a proposal 1 as part of a proactive review. We '
         reviewed the other proposals submitted by the PI2 and co-Pis, 3 and found plagiarism in a second
         proposal on which the PI of the first proposal was a co-PI.

         We contacted the PI and co-Pis of the first proposal, who indicated that one of the co-Pis4 was
         responsible for the plagiarized text. The co-PI told us that the lack of proper citation was due to a
         compiler erro~ in compiling the text into the proposal. As the amount of plagiarism was de minimus,
         we sent him a letter, reminding him of the importance of proper citation.

         We received a letter from the PI5 of the second proposal, 6 co-signed by the other Pis/ regarding the
         plagiarism we had found. The PI noted that he, and his research team, could not recall who had
         written that section of the proposal, or how it had gotten into the proposal. As the amount of
         plagiarism was de minimus, we sent the PI a letter, reminding him of the importance of proper
         citation.

         Accordingly., this case is closed.




NSF OIG Form 2 (11/02)
